                Performance Data for the Security Program
                          Should Be Corrected

                                     April 2004

                       Reference Number: 2004-20-093




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION


                                                           April 27, 2004



       MEMORANDUM FOR COMMISSIONER


       FROM:                            Gordon C. Milbourn III
                                        Acting Deputy Inspector General for Audit

       SUBJECT:                         Final Audit Report - Performance Data for the Security Program
                                        Should Be Corrected (Audit # 200420001)


       This report presents the results of our review of the Internal Revenue Service (IRS)
       security program performance data. The overall objective of this review was to validate
       performance measure data reported by the IRS to the Department of the Treasury
       related to the number of systems that underwent a security self-assessment in Fiscal
       Year (FY) 2003. This report is being furnished to you since protection of taxpayer
       information is the ultimate responsibility of all IRS executives and managers.
       The Federal Information Security Management Act (FISMA)1 requires Federal
       Government agencies to annually assess the security controls in place to protect the
       information and systems that support their operations and to report those results to the
       Office of Management and Budget (OMB). To ensure sensitive taxpayer information is
       adequately and appropriately protected, business unit leaders must take ownership of
       the security of their assigned systems and integrate security into daily program
       responsibilities.
       In summary, we found that the information provided by the Chief Information
       Officer (CIO) to the Department of the Treasury in September 2003 was inaccurate.
       Neither the IRS business unit managers nor the CIO’s staff tested security controls for
       the 352 applications that required a security self-assessment. Specifically, the CIO’s
       staff sorted the 352 applications into 10 groups, 1 group for each of the 10 operating
       systems. All applications assigned to an operating system were given the same
       assessment as each of the other applications for that operating system. Apparently, the
       CIO’s staff assumed every application running on an operating system had the same
       controls. The business unit managers who own the applications were asked to validate

       1
           Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
                                                        2

that the assessments for the operating systems were accurate for the respective
applications, even though no testing of the application controls was conducted.
While we agree it is important for the Information Technology organization to test
operating system controls, it is also important for business unit managers to ensure
application security controls are tested. Application security controls are critical for
providing adequate security over taxpayer data. Application security controls often
provide the last defense against a disgruntled employee or contractor who may wish to
inappropriately access sensitive information or disrupt computer operations.
The OMB did not issue instructions to Federal Government agencies for completing the
FY 2003 FISMA reports until August 2003. However, self-assessments have been
required since October 2000 by the Government Information Security Reporting Act.2
The IRS did not begin to conduct its self-assessments until the summer of 2003. As a
result, it rushed to answer the required questionnaire and jeopardized the credibility of
the assessment process by claiming that all applications running on a specific operating
system had the same level of controls.
We recommended the Commissioner hold business unit managers accountable for the
security of their applications and ensure annual self-assessments of their applications
are conducted in accordance with the FISMA requirements. To ensure accurate
information is reported in compliance with the FISMA, we recommended the Chief,
Mission Assurance, amend the IRS information provided to the Department of the
Treasury in September 2003 and resubmit the corrected information. We also
recommended the Chief, Mission Assurance, coordinate with business unit managers to
define the roles and responsibilities for assessing the security of all sensitive
applications for the FY 2004 self-assessments required by the FISMA.
Management’s Response: IRS management agreed that business unit managers
should be held accountable for ensuring annual self-assessments of their systems are
conducted. The response stated that actions have already been taken to address this
issue and provided no further corrective actions.
Management disagreed with our recommendation that the Chief, Mission Assurance,
revise the number of systems reported to the Department of the Treasury to reflect that
the IRS assessed 10 operating systems but did not review any sensitive applications.
They stated that all systems/applications were reviewed to determine the managerial,
technical, and operational security measures in place. Management also stated that
managerial and operational controls were reviewed through methods other than the
FISMA self-assessments.
Finally, management agreed with our recommendation that the Chief, Mission
Assurance, coordinate with business unit managers to help define the roles and
responsibilities for assessing the security of all sensitive applications during FY 2004 in
accordance with the FISMA. Corrective actions are in process. Management’s
complete response to the draft report is included as Appendix V.

2
    FY 2001 Defense Authorization Act (P.L. 106-398).
                                                         3

Office of Audit Comment: Management actions taken to ensure business unit
managers are accountable for the security of their systems and annual tests of their
applications are conducted have not been effective. To adequately protect information,
business unit managers must understand the current status of their security programs
and the security controls planned or in place in order to make informed judgments and
investments that appropriately reduce risk. As we reported, the IRS has yet to conduct
self-assessments of any of its applications, other than those that have undergone
certification and accreditation. Without annual testing as required by the FISMA,
management has no means to fully understand the current status of their security
controls. Signing a form that presents an assessment of an operating system does not,
in our view, provide management with an adequate basis for understanding the security
of its applications.
We continue to maintain the validity of our recommendation that the IRS revise the
number of systems reviewed as reported to the Department of the Treasury. It is
inaccurate for the IRS to state that 569 systems/applications were reviewed. As stated
in our report, all applications assigned to an operating system were given the same
assessment as each of the other applications for that operating system, thus indicating
that operating systems were assessed but applications were not. We also maintain the
identical assessments indicate that reviews of managerial and operational controls in
the applications were not conducted through other methods.
In addition, the Chief, Mission Assurance, stated that the IRS has revised its
categorization of systems/applications for certification and accreditation activities as well
as for vulnerability tracking and FISMA reporting. Initially, 87 general support systems,
major applications, and applications of interest have been identified and will be used as
the basis for FY 2004 FISMA reporting. The Chief, Mission Assurance, is attempting to
bundle or associate the remaining low-impact applications with those 87 systems and
applications scheduled for certification. This approach seems to be consistent with
guidance from the National Institute of Standards and Technology (NIST) for
certification and accreditation activities.3 However, to fully comply with the guidance,
the IRS must conduct at least some testing based on risk on the low-impact
applications, not just the 87 major systems and applications.
While we still believe our recommendation is worthwhile, we do not intend to elevate our
disagreement concerning this matter to the Department of the Treasury for resolution.
Department of the Treasury and IRS officials are currently seeking clarification
regarding the NIST guidance as it relates to the IRS’ certification and accreditation
activities. We will continue to monitor this issue in relation to the IRS’ compliance with
the FISMA requirements for FY 2004. Copies of this report are also being sent to the
IRS managers affected by the report recommendations. Please contact me at
(202) 622-6510 if you have questions, or your staff may call Margaret E. Begg,



3
 Final Draft Special Publication 800-37, Guide for the Security Certification and Accreditation of Federal
Information Systems (dated April 2004).
                                          4

Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.
                Performance Data for the Security Program Should Be Corrected




                                                  Table of Contents


Background ............................................................................................... Page 1
The Internal Revenue Service Did Not Conduct Security
Self-Assessments of Its Applications......................................................... Page 2
         Recommendation 1: ........................................................................ Page 5
         Recommendation 2: ........................................................................ Page 6
         Recommendation 3: ........................................................................ Page 7

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 8
Appendix II – Major Contributors to This Report........................................ Page 9
Appendix III – Report Distribution List ....................................................... Page 10
Appendix IV – Methodology Required for Self-Assessments .................... Page 11
Appendix V – Management’s Response to the Draft Report ..................... Page 12
             Performance Data for the Security Program Should Be Corrected

                                 On December 17, 2002, the President signed the Electronic
Background
                                 Government Act, which includes Title III, the Federal
                                 Information Security Management Act (FISMA).1 The
                                 FISMA and Office of Management and Budget (OMB)
                                 guidance provide a framework for annual information
                                 technology (IT) security reviews, reporting, and remediation
                                 planning to assist Federal Government agencies in meeting
                                 their IT security responsibilities.
                                 The FISMA requires that Federal Government agencies
                                 annually evaluate and report on the security of their
                                 information systems. To promote standardization among
                                 the agencies, the OMB requires responses to specific
                                 requests for information. Inspectors General are required to
                                 respond independently to most of the items requested.
                                 Agencies then submit both sets of responses to the OMB
                                 with their annual budget requests.
                                 As required by the FISMA, the Treasury Inspector General
                                 for Tax Administration and the Internal Revenue Service
                                 (IRS) each prepared responses to the information requested
                                 by the OMB on the status of security in the IRS for Fiscal
                                 Year (FY) 2003. Some of the responses required empirical
                                 information for the entire fiscal year, but the responses had
                                 to be forwarded to the Department of the Treasury in
                                 August 2003 so they could be consolidated with other
                                 bureaus and submitted timely to the OMB. None of the IRS
                                 system reviews had been completed by August 2003. As a
                                 result, the IRS projected results for the number of systems
                                 reviewed and submitted an updated report on
                                 September 30, 2003.
                                 Guidance from the OMB states that all systems
                                 (applications), other than those that have been certified
                                 during the current year, must be reviewed. The necessary
                                 depth and breadth of an annual review depend on several
                                 factors such as the potential risk and magnitude of harm to
                                 the system or data, the relative comprehensiveness of last
                                 year’s review, and the adequacy and successful
                                 implementation of planned corrective actions. The salient
                                 point is that an effective security program requires
                                 maintaining sound and effective computer security practices


                                 1
                                     Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
                                                                                              Page 1
             Performance Data for the Security Program Should Be Corrected

                                 and demands a comprehensive and continuous
                                 understanding of program and system weaknesses.
                                 The OMB requires Federal Government agencies to use the
                                 National Institute for Standards and Technology (NIST)
                                 Special Publication 800-26, Security Self-Assessment Guide
                                 for Information Technology Systems, to conduct their annual
                                 reviews. The NIST Self-Assessment Guide lists 17 control
                                 topics categorized into 3 major control areas: management,
                                 operational, and technical. See Appendix IV for further
                                 details regarding the three major control areas.
                                 We initiated this review to validate the accuracy of the
                                 information reported to the Department of the Treasury
                                 regarding the number of systems and applications reviewed.
                                 We evaluated the methodology used by the IRS for the
                                 security self-assessments and interviewed management from
                                 the Large and Mid-Size Business (LMSB), Small Business/
                                 Self-Employed (SB/SE), Tax Exempt and Government
                                 Entities (TE/GE), and Wage and Investment (W&I)
                                 Divisions who own the majority of IRS systems.
                                 We conducted our audit from October 2003 through
                                 January 2004 at the Office of Mission Assurance in
                                 New Carrollton, Maryland. The audit was performed in
                                 accordance with Government Auditing Standards. Detailed
                                 information on our audit objective, scope, and methodology
                                 is presented in Appendix I. Major contributors to the report
                                 are listed in Appendix II.
                                 To maintain adequate security in a network environment,
The Internal Revenue Service
                                 controls are required for each sensitive application and for
Did Not Conduct Security
                                 the operating systems on which the applications run.
Self-Assessments of Its
                                 Operating system controls help ensure only authorized
Applications
                                 persons have access to the network. Application controls
                                 help deter disgruntled employees and contractors who
                                 already have access to the network from inappropriately
                                 accessing sensitive information and disrupting computer
                                 operations.
                                 For the FY 2003 FISMA reporting period covering
                                 October 2002 through September 2003, the IRS Security
                                 Services function within the Chief Information
                                 Officer (CIO) organization was responsible for reviewing
                                 security controls for each of the operating systems used in
                                 the IRS. The FISMA requires that agency program officials
                                                                                        Page 2
Performance Data for the Security Program Should Be Corrected

                    (business unit managers) annually review the applications
                    supporting their programs. The CIO’s staff took the
                    responsibility of providing guidance to business owners and
                    for accumulating and reporting the results to the Department
                    of the Treasury. Beginning in October 2003, the Chief,
                    Mission Assurance, assumed these responsibilities.
                    For several years, the IRS has struggled to identify the total
                    number of systems and applications and is not yet confident
                    that the total number is accurate. The IRS is working with
                    the Department of the Treasury to identify an accurate
                    inventory of systems and applications, and we are
                    addressing this issue in another review for which we will
                    issue an audit report later this year.
                    As of September 30, 2003, the IRS reported an inventory of
                    10 operating systems and 424 sensitive applications. It also
                    reported that 72 sensitive applications had been certified or
                    recertified during FY 2003 and that it had completed
                    self-assessments on the remaining 352 applications.
                    The information provided by the CIO to the Department of
                    the Treasury in September 2003 was inaccurate. Neither the
                    IRS business unit managers nor the CIO’s staff tested
                    security controls for the 352 applications. Instead, the
                    CIO’s staff prepared assessments for the 10 operating
                    systems and sorted the 352 applications into 10 groups,
                    1 group for each of the 10 operating systems. All
                    applications assigned to an operating system were given the
                    same assessment as each of the other applications for that
                    operating system. Apparently, the CIO’s staff assumed all
                    applications running on a particular operating system had
                    the same controls.
                    The business unit managers who own the applications were
                    asked by the CIO’s staff to validate that the assessments for
                    the operating systems were accurate for the respective
                    applications, even though no testing of the application
                    controls was conducted. Business unit managers made
                    minimal changes to only 8 (2 percent) of the
                    352 assessments.
                    The OMB did not issue instructions to Federal Government
                    agencies for completing the FY 2003 FISMA reports until
                    August 2003. However, self-assessments have been
                    required since October 2000 by the Government
                                                                            Page 3
Performance Data for the Security Program Should Be Corrected

                    Information Security Reporting Act.2 The IRS did not begin
                    to conduct its self-assessments until the summer of 2003.
                    As a result, it rushed to answer the NIST questionnaire and
                    jeopardized the credibility of the assessment process by
                    claiming that all applications running on a specific operating
                    system had the same level of controls.
                    We spoke to representatives of the LMSB, SB/SE, TE/GE,
                    and W&I Divisions to determine the extent of their input to
                    the FY 2003 assessment process. Collectively, these
                    business units own the majority of IRS applications. The
                    representatives stated that they did not have the knowledge
                    or expertise to comment on or validate assessments of the
                    operating systems, nor did they review the current risk
                    assessments and security plans for the applications.
                    In addition, business unit managers expressed confusion
                    regarding what is expected of them and their roles in
                    meeting the FISMA requirements. They were not sure if
                    they were supposed to partner with the IT organization to
                    gain the necessary expertise or how they would obtain the
                    resources for such an effort. Some were understandably
                    confused as to how an assessment of an operating system
                    could be used to assess an application.
                    In lieu of providing feedback on the assessments, business
                    unit managers focused their attention on validating
                    application ownership and the assigned risk level for each
                    application. They did sign a statement acknowledging that
                    assessments were completed and that they understood the
                    risks associated with the applications.
                    Business unit managers also expressed apprehension with
                    the overall assessment process and suggested a need for the
                    Office of Mission Assurance to provide a clear vision and
                    define objectives and expectations, to assist them in
                    executing their responsibilities with the process. They also
                    expressed concern that preparations for the FY 2004
                    assessment have not been communicated. Because
                    activities for FY 2003 were centered on application
                    ownership and application risk levels, they do not have a
                    clear understanding of what their roles will be in subsequent
                    FISMA initiatives.


                    2
                        FY 2001 Defense Authorization Act (P.L. 106-398).
                                                                            Page 4
Performance Data for the Security Program Should Be Corrected

                    Recommendations

                    To ensure adequate security of information and systems, the
                    Commissioner should:
                    1. Hold business unit managers accountable for the
                       security of their applications and ensure annual
                       self-assessments of their sensitive applications are
                       conducted in accordance with the FISMA.
                    Management’s Response: Management agreed with this
                    recommendation. Management cited actions taken during
                    FY 2003 but provided no further corrective actions.
                    During implementation of the FISMA in 2003, the Office of
                    Mission Assurance conducted numerous briefings and
                    discussions to communicate FISMA requirements and
                    provide guidance to business unit staffs and other senior
                    IRS officials to assist them in completing all required
                    FISMA program reviews or security controls testing. A
                    FISMA Service Level Agreement, which supported the
                    implementation of the FISMA Security Assessments, was
                    approved and signed by the Acting Chief, Security Services,
                    on September 3, 2003.
                    Office of Audit Comment: The actions taken to ensure
                    business unit managers are accountable for the security of
                    their systems and annual tests of their applications are
                    conducted have not been effective. Business unit managers
                    must understand the current status of their security programs
                    and the security controls planned or in place to protect their
                    information, in order to make informed judgments and
                    investments that appropriately reduce risk.
                    As we reported, the IRS has yet to conduct self-assessments
                    of any of its applications, other than those that have
                    undergone certification and accreditation. Without annual
                    testing as required by the FISMA, management has no
                    means to understand the current status of their security
                    controls. Signing a form that presents an assessment of an
                    operating system does not, in our view, provide
                    management with an adequate basis for understanding the
                    security of its applications.
                    To ensure accurate information is reported in compliance
                    with the FISMA, the Chief, Mission Assurance, should:

                                                                              Page 5
Performance Data for the Security Program Should Be Corrected

                    2. Revise the number of systems reported to the
                       Department of the Treasury to reflect that the IRS
                       assessed only 10 operating systems and did not include
                       reviews of any sensitive applications.
                    Management’s Response: Management disagreed with this
                    recommendation and its related finding. They stated that
                    each of 569 systems/applications was reviewed to determine
                    the managerial, technical, and operational security measures
                    in place. Management also stated that managerial and
                    operational controls were reviewed through methods other
                    than the FISMA self-assessments.
                    Office of Audit Comment: We maintain it is inaccurate to
                    state that 569 systems/applications were reviewed. As
                    stated in our report, all applications assigned to an operating
                    system were given the same assessment as each of the other
                    applications for that operating system, thus indicating that
                    operating systems were assessed but applications were not.
                    We also maintain the identical assessments indicate that
                    reviews of managerial and operational controls in the
                    applications were not reviewed through other methods.
                    In addition, the Chief, Mission Assurance, stated that the
                    IRS has revised its categorization of systems/applications
                    for certification and accreditation activities as well as for
                    vulnerability tracking and FISMA reporting. Initially,
                    87 general support systems, major applications, and
                    applications of interest have been identified and will be used
                    as the basis for FY 2004 FISMA reporting. The Chief,
                    Mission Assurance, is attempting to bundle or associate the
                    remaining low-impact applications with those 87 systems
                    and applications scheduled for certification. This approach
                    seems to be consistent with guidance from the NIST for
                    certification and accreditation activities.3 However, to fully
                    comply with the guidance, the IRS must conduct at least
                    some testing based on risk on the low-impact applications,
                    not just the 87 major systems and applications.




                    3
                     Final Draft Special Publication 800-37, Guide for the Security
                    Certification and Accreditation of Federal Information Systems (dated
                    April 2004).
                                                                                   Page 6
Performance Data for the Security Program Should Be Corrected

                    3. Coordinate with business unit managers to help define
                       the roles and responsibilities for assessing the security of
                       all sensitive applications during FY 2004 in accordance
                       with the FISMA.
                    Management’s Response: Management agreed with this
                    recommendation and corrective actions are in process. The
                    Office of Mission Assurance will be providing updated
                    guidance to assist the business units and other senior
                    officials in more clearly understanding FISMA requirements
                    and associated roles and responsibilities.




                                                                            Page 7
                   Performance Data for the Security Program Should Be Corrected

                                                                                         Appendix I


                             Detailed Objective, Scope, and Methodology

The overall objective of this review was to validate performance measure data reported by the
Internal Revenue Service (IRS) to the Department of the Treasury related to the number of
systems that underwent a security self-assessment in Fiscal Year 2003. To accomplish this
objective, we:
I.         Reviewed self-assessments for each of the 352 sensitive applications. We sorted the
           352 self-assessments by the operating system to which they were assigned and compared
           the results. All applications assigned to an operating system were given the same
           assessment as each of the other applications for that operating system. We confirmed
           with representatives of the Chief, Mission Assurance, that this was the approach taken.
           Since tests had not been performed for applications, no further review of the assessments
           was necessary.
II.        Interviewed contact points in the four business units to determine if they had conducted
           any testing to support the self-assessments assigned to their business units and to discuss
           their understanding of what their roles will be in subsequent Federal Information Security
           Management Act1 self-assessments.




1
    Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).


                                                                                              Page 8
             Performance Data for the Security Program Should Be Corrected

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Gerald Horn, Audit Manager
Abraham Millado, Senior Auditor
Joan Raniolo, Senior Auditor
Charles Ekholm, Auditor




                                                                                         Page 9
            Performance Data for the Security Program Should Be Corrected

                                                                        Appendix III


                               Report Distribution List

Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief Information Officer OS:CIO
Chief, Mission Assurance OS:MA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief, Mission Assurance OS:MA




                                                                             Page 10
              Performance Data for the Security Program Should Be Corrected

                                                                                    Appendix IV


                      Methodology Required for Self-Assessments

The Office of Management and Budget (OMB) requires Federal Government agencies to use the
National Institute for Standards and Technology (NIST) Special Publication 800-26, Security
Self-Assessment Guide for Information Technology Systems, to conduct their annual reviews.
The NIST Self-Assessment Guide lists 17 control topics categorized into 3 major control areas:
management, operational, and technical.
Management controls focus on the management of the security system and the management of
risk. Management controls include ensuring security plans are current and certifications are
performed timely.
Operational controls are primarily implemented and executed by people (as opposed to systems).
Some require technical expertise, but many can and should be assessed by operations managers
who have no technical expertise.
Technical controls are performed by computer systems. The controls can provide automated
protection from unauthorized access or misuse, facilitate detection of security violations, and
support security requirements for applications and data.
Each of the 17 control topics in the NIST Self-Assessment Guide has several questions that must
be answered by providing the level of effectiveness as follows:
    • Level 1 – Control objective documented in a security policy.
    • Level 2 – Security controls documented as procedures.
    • Level 3 – Procedures have been implemented.
    • Level 4 – Procedures and security controls are tested and reviewed.
    • Level 5 – Procedures and security controls are fully integrated into a comprehensive
      program.
The questions should be answered by examining relevant documentation and conducting a
rigorous examination and test of controls. The OMB suggests that the General Accounting
Office’s Federal Information System Controls Audit Manual provides techniques that can be
used to test the control objectives.




                                                                                           Page 11
Performance Data for the Security Program Should Be Corrected

                                                            Appendix V


       Management’s Response to the Draft Report




                                                                Page 12
Performance Data for the Security Program Should Be Corrected




                                                                Page 13
Performance Data for the Security Program Should Be Corrected




                                                                Page 14
Performance Data for the Security Program Should Be Corrected




                                                                Page 15
Performance Data for the Security Program Should Be Corrected




                                                                Page 16
Performance Data for the Security Program Should Be Corrected




                                                                Page 17
Performance Data for the Security Program Should Be Corrected




                                                                Page 18
Performance Data for the Security Program Should Be Corrected




                                                                Page 19
